Review of Outpatient Cardiac Rehabilitation Services - Saint Luke's Medical Center, Milwaukee, Wisconsin
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Cardiac Rehabilitation Services - Saint Luke's
Medical Center, Milwaukee, Wisconsin," (A-05-02-00084)
July 16, 2003
Complete
Text of Report is available in PDF format (201 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Saint Luke’s Medical
Center (SLMC) currently claimed Medicare reimbursement for outpatient cardiac
rehabilitation services.  We found that SLMC did not designate a physician
to directly supervise the services provided under its cardiac rehabilitation
program.  In addition, contrary to Medicare requirements, we could not
identify the physician professional services to which the cardiac rehabilitation
services were provided “incident to.”  Based on a statistical
sample, we estimated that SLMC claimed and received Medicare reimbursement
for outpatient cardiac rehabilitation services, of approximately $47,247, which
did not meet Medicare coverage requirements, which may not have been supported
by medical record documentation, or which was otherwise unallowable.  We
recommended that SLMC work with its fiscal intermediary to ensure that its
outpatient cardiac rehabilitation program is conducted in accordance with the
Medicare coverage requirements, and to establish the amount of repayment liability,
estimated to be approximately $47,247.  We also made procedural recommendations
for internal control improvements.